No.

20-6965

3n tfje Supreme Court of tfje fHntteti States!
Bradley B. Miller, Petitioner
v.
Virginia Talley Dunn, Respondent

ON PETITION FOR REVIEW
TO THE SUPREME COURT OF TEXAS

PETITION FOR REHEARING

Bradley B. Miller
Pro Se
5701 Trail Meadow Dr.
Dallas, Texas 75230
(214) 923-9165
tech@bbmcs.com

TABLE OF CONTENTS
Table of Authorities

ii

Petition for Rehearing

1

Conclusion

10

Certificate

11

i

TABLE OF AUTHORITIES
CASES
Filler v. Hancock County,
No. l:15-cv-00048-JAW (District Court, D. Maine,
Mar. 12, 2019)...........................................................

3

Troxel v. Granville,
530 U.S. 57 (2000))

6

United States v. Lee,
106 U.S. 196 (1882)

1

Williams v. United States,
341 U.S. 97 (1951)...

9
STATUTES

18U.S.C. § 241

passim

18 U.S.C. § 242

passim

28 U.S.C. § 1443

3

CONSTITUTION
First Amendment

4, 8, passim

Fourteenth Amendment

5-6, passim

RULES AND CODES
United States Supreme Court Rule 44

li

1, 11

OTHER AUTHORITIES
Grail, Timothy (2016). U.S. Department of Commerce Economics and Statistics
Administration, U.S. CENSUS BUREAU. Custodial Mothers and Fathers
and Their Child Support: 2013. [online] Census.gov. Available at:
https://www.census.gov/content/dam/Census/library/publications/2016/
demo/P60-255.pdf [Accessed 27 April 2021]............................................... 5
HB 803, 87th Leg., 2021 Leg. Sess. (Tex. 2021). Available at:
https://capitol.texas.gov/tlodocs/87R/billtext/html/HB00803I.htm>
[Accessed 27 April 2021].................................................................

6

Kotlikoff, Laurence (2018) “Crazy State Differences In Child Support”,
Forbes.com, https://www.forbes.com/sites/kotlikoff/2018/07/19/
crazy-state-differences-in-child-support [Accessed 27 April 2021].

5

McLanahan, S., Tach, L. and Schneider, D. (2013). The Causal Effects
of Father Absence, [online] US National Library of Medicine.
Available at: https://www.ncbi.nlm.nih.gov/pmc/articles/
PMC3904543 [Accessed 27 April 2021]............................................... 5
Stringer, Heather (2018) “Psychologists Respond To A Mental Health
Crisis At The Border”, Apa.org, https://www.apa.org/news/apa/
2018/border-family-separation [accessed 27 April 2021]...........

m

5

“No man in this country is so high that he is above the law.
No officer of the law may set that law at defiance with
impunity. All the officers of the government, from the highest
to the lowest, are creatures of the law and are bound to obey
it. It is the only supreme power in our system of government,
and every man who by accepting office participates in its
functions is only the more strongly bound to submit to that
supremacy, and to observe the limitations which it imposes
upon the exercise of the authority which it gives.”
—United States v. Lee, 106 U.S. 196 at 220 (1882).

PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, pro se Petitioner Miller hereby
respectfully petitions for rehearing of this case.
1. Let us begin with the most important issue: Due to the
fraudulent actions of the 330th Family District Court, Dallas County,
Texas—and the shameful inaction of this Court—Petitioner Miller
has not seen or spoken to his 13-year-old daughter for almost
three years.
2. This travesty has persisted despite Miller’s having filed four
cases in this Court, all arising from the same atrocious Texas Family
Court case. (See SCOTUS case numbers 16-9012, 17-6836, 18-7450,
and the instant case, 20-6965).

1

3. It is apparent from this Court’s inaction that the Supreme
Court of the United States simply does care about the rampant judicial
corruption that characterizes our Family Court system (and higher
courts beyond), and has absolutely no intention of addressing it.
4. Since the filing of this Supreme Court case, Petitioner Miller
has filed a civil suit against two Texas Family District Court judges and
twelve other defendants—including the Respondent herein, Virginia
Talley Dunn—alleging fraud and egregious, persistent civil rights
violations. (See case number DC-20-15614 in the 116th Civil District
Court, Dallas County, Texas. Case documents may be viewed at
https://courtsportal.dallascounty.org/DALLASPROD).
5. In Miller’s state civil suit, Miller has presented evidence that,
during their divorce, Dunn entered Miller’s home without permission,
photographed legal documents on his desk pertaining to the divorce
case, and emailed the photos to her attorney. (See Miller’s Original
Petition in the above-cited case no. DC-20-15614, at Exhibit A). It is
criminal conduct of this kind—both on the part of Respondent Dunn
and 330th District Court Judges Andrea Plumlee and Danielle Diaz—
that has characterized Miller’s Family Court case from the outset.

2

6. Respondent Dunn has conducted a campaign of harassment
against Miller for eight years now, enlisting the cooperation of the
courts, law enforcement officers, their daughter’s school, and other
individuals in the Dallas community. This Court is fully aware of the
circumstances, and has consistently turned a blind eye—denying
hearing of all four of Miller’s cert petitions.
7. Through discussions with thousands of other parents
nationwide, and through further legal research, Miller has learned that
his case is far from unique—rather, this kind of official abuse is the
norm in Family Court cases throughout the country. (See, e.g., Filler v.
Hancock County, No. l:15-cv-00048-JAW (District Court, D. Maine,
Mar. 12, 2019)). It is appalling that this kind of judicial and official
conduct is allowed to go on. The courts are doing exactly the opposite of
their constitutional mandate.
8. In Petitioner Miller’s pending state-court civil suit, Miller has
filed an Emergency Motion for Declaratory Judgment, asking the 116th
Civil District Court (Dallas County) to declare two orders void—orders
that were issued without jurisdiction during Section 1443 federal
removals. 28 U.S.C. § 1443. The judge of the 116th Civil District Court

3

ruled that Miller’s complaint did not qualify as an emergency—despite
the fact that he has been subject to a gag order for six years, and he
hasn’t seen his daughter for three years—so it is unclear whether even
his fundamental right to free speech will be restored in those civil
proceedings. That hearing will not take place until June.
9. In a perverse irony, 330th Family Court Judge Andrea
Plumlee is being represented in Miller’s civil suit by the Office of the
Texas Attorney General. So the citizens of the State of Texas are
paying for the legal defense of a criminal who is routinely abusing the
rights of those same Texas citizens. It is no surprise that Texas
Attorney General Ken Paxton is himself currently under criminal
indictment. (See Harris County 177th Criminal District Court case
numbers 155510001010-3, 155510101010-3, and 155510201010-3). The
Texas Family Court system and Texas Attorney General’s Office are
quite literally functioning as a crime syndicate. This Supreme Court
does not care.
10. So, rather than advance another legal argument—which this
Court will also ignore—Miller solicited comments on his Facebook page,

4

asking parents to voice their concerns about Family Court, which he
pledged to raise in his Petition for Rehearing. These complaints are:
• Family Court is biased, and a profiteering scheme run by
and forjudges, attorneys, and the state.
• Family Court unconstitutionally divides child custody
unequally between parents, depriving fathers of equal time
with their children in 83% of cases nationwide. (Grail,
2016).
• Family Court often sets child support levies without any
consideration for the actual cost of raising a child, so child
support is essentially being used as alimony. (See “Crazy
State Differences In Child Support” (Kotlikoff, 2018)). And,
• Family Court causes severe and often permanent
psychological harm to children by removing one parent from
their lives—usually the father. (See McLanahan, Tach and
Schneider, 2013; Stringer 2018).
All of these concerns are valid and pressing—and, in fact, Miller has
previously raised all of them in this Court. And again, this Court has
persistently ignored these concerns—despite copious Fourteenth

5

Amendment precedent reaffirming parental rights. (See Troxel v.
Granville, 530 U.S. 57 (2000)). Thus we have a peculiar judicial
paradox in this country: The Supreme Court has repeatedly ruled that
parental rights are legally sacrosanct; yet the same Supreme Court—
upon seeing repeated petitions demonstrating that our Family Court
system is routinely violating these same constitutional protections—
steadfastly refuses to do anything about it. This is what judicial
corruption looks like.
11. As a relevant aside, this past Monday, April 26, 2021, more
than 150 parents convened in Austin, Texas to testify before the Texas
House Juvenile Justice and Family Issues Committee in support of HB
803—which would impose a presumption of equally shared possession
time in child custody cases. The only people who testified against HB
803 were two judges and five or six family law attorneys—who of course
have a vested financial interest in maintaining the status quo in Family
Court. Unfortunately, despite the massive public support behind HB
803, it most likely will not make it to a vote on the Texas House floor
because the family law lobby essentially controls the Texas JJFI
committee. This is what legislative corruption looks like.

6

12. So that the Court may recall the origins of the trial court
case—and so that the interested public may understand it—Petitioner
Miller will again summarize the circumstances surrounding case
number DF-13-02616 in the 330th Family District Court, Dallas
County, Texas (see also Texas Supreme Court case number 16-0487):
• Respondent Virginia Talley Dunn began threatening to divorce
Miller in 2012 if he did not agree to move their daughter to the
Hockaday School immediately, rather than in a few years.
• Miller discovered evidence that Dunn was conducting an
inappropriate relationship with an “older man” (as Dunn put it).
• Dunn’s behavior became increasingly erratic, and she began
threatening to kill Miller and to kill herself. (Miller recorded some of
these bizarre outbursts, and presented them in court.)
• Dunn filed for divorce in February 2013, and immediately began
efforts to change her daughter’s school placement.
• When Miller did not leave the marital home immediately, Dunn filed
an affidavit alleging Domestic Violence a few days later, and had
Miller evicted from his home by means of an illegal ex parte “kickout” order. (These allegations were unsubstantiated and are
completely false. This tactic is called the “Silver Bullet.”)
7

• As a result of these false allegations, for five months, Miller was
required to have a supervisor in order to see his daughter.
• When Miller attempted to speak out about what was happening to
him, Dunn requested and received several gag orders against him.
• Dunn then sued Miller in state civil court in 2015 for “tortious
interference” in her business, requesting another gag order—which
he had to appeal in the state Court of Appeals to overturn.
• In that 2015 civil suit, an associate of Dunn’s, former Hockaday
parent and retired Texas Fifth District Court of Appeals Justice Ted
Akin, suddenly appeared as a Visiting Judge and signed the gag
order against Miller.
• The divorce and ensuing civil suit cost Miller around $320,000 to
defend—most borrowed from his elderly parents. Miller was given
no access to community funds during the divorce, and he lost his
home and all of his assets, and all but limited custody of his
daughter.
• In a subsequent custody modification suit Dunn filed against Miller
in 2015—without any stated grounds—Miller was deprived of his
First Amendment rights to free speech and assembly, and he has
been subject to an illegal gag order for almost six years.

8

• In yet another modification suit Dunn filed against Miller in 2018,
the 330th Family District Court issued a fraudulent order without
jurisdiction that has kept Miller from seeing his daughter since mid2018.
• Despite numerous appeals of these illegal “orders” to both state and
federal appellate courts, no court in the country will vacate them—or
even address them.
But of course this Court is already aware of these facts. The question is:
Why isn’t this Court doing anything about it?
13. Family Court corruption is a nationwide problem—and one
that (as already mentioned) the United States Supreme Court has
repeatedly refused to address. But this Court can begin the process of
solving it by recognizing the trial court’s constitutional abuses at issue
in this appeal, and by correcting them. In all proceedings, as this Court
itself once stated, “It is the right of the accused to be tried by a legally
constituted court, not by a kangaroo court.” Williams v. United States,
341 U.S. 97 at 101 (1951). The trial court must follow the law, and
must cease acting in the financial interests of judges, attorneys, and the
state. This Court must ensure that the constitutional rights of both
children and parents are protected.
9

CONCLUSION
For the foregoing reasons, the petition for rehearing should be granted.

Respectfully submitted,

Bradley B. Miller
Pro Se
5701 Trail Meadow Dr.
Dallas, Texas 75230
(214) 923-9165 Telephone
tech@bbmcs.com
April 28, 2021

10

CERTIFICATE
As pro se Petitioner in this matter, I hereby certify that this petition
for rehearing is presented in good faith and not for delay and is restricted
to the grounds specified in Rule 44.2. (The filing of this appeal did not
stay the underlying litigation, so no potential delay exists.)
I further certify that the grounds of this petition are limited to
intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously presented.

Respectfully submitted,

Bradley B. Miller
Pro Se
5701 Trail Meadow Dr.
Dallas, Texas 75230
(214) 923-9165 Telephone
tech@bbmcs.com

April 28, 2021

11

